U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

September 13, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Campbell v. United States, No. 20-1790
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on June 21, 2021.
The government’s response is now due, after two extensions, on September 22, 2021. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including October 22, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Brian H. Fletcher
Acting Solicitor General
cc:

See Attached Service List

20-1790
ALSTON, CAMPBELL JR.
USA

JOHN D. CLINE
LAW OFFICE OF JOHN D. CLINE
50 CALIFORNIA STREET
STE. 1500
SAN FRANCISCO, CA 94111
415-662-2260
CLINE@JOHNDCLINELAW.COM
GREGORY JAMES DUBOFF
MCGUIREWOODS LLP
800 EAST CANAL STREET
RICHMOND, VA 23219
804-775-1154
GDUBOFF@MCGUIREWOODS.COM

